Audit of Non-USDH Personnel Performing
Procurement Functions Within USAID

Audit Report No. 9-000-02-003-P

March 15, 2002




                 Washington, D.C.
U.S. AGENCY FOR
INTERNATIONAL
DEVELOPMENT

Performance Audit Division



March 15, 2002


MEMORANDUM
FOR:                M/OP, Director, Mark Ward

FROM:               IG/A/PA, Director, Dianne L. Rawl

SUBJECT:            Audit of Non-USDH Personnel Performing Procurement Functions Within
                    USAID (Report No. 9-000-02-003-P)


This memorandum is our report on the subject audit. Your comments on the draft report have
been included in their entirety in Appendix II.

This report contains no recommendations for your action. I appreciate the cooperation and
courtesy extended to my staff during the audit.




                                                                                             1
Summary of   The House Appropriations Committee’s Subcommittee on Foreign Operations
Results      requested the Office of Inspector General to perform an audit of non-U.S.
             direct-hire (non-USDH) personnel performing procurement functions in
             USAID. In response to this request, the Office of Inspector General in
             Washington conducted an audit to determine (1) if USAID has the authority to
             delegate procurement functions to non-USDH personnel and (2) how many
             non-USDHs were performing procurement functions (see page 3).

             We determined that USAID has the authority to delegate procurement
             functions to non-USDH personnel, including foreign and U.S. personal
             services contractors. Contracting and obligating authority may be delegated
             to non-USDHs with the approval of certain senior USAID officials; however,
             it is USAID’s general policy to designate only USDH employees as
             contracting officers.

             We determined that an estimated 230 overseas and 13 domestically based
             non-USDH employees were performing procurement-related functions for
             USAID. In addition, we found that four U.S. citizens, who were not USAID
             direct-hires, had been granted contracting warrants. Three of the four were
             former USAID direct-hire employees who already possessed significant
             USAID contracting experience and were working under personal services
             contracts. The fourth individual was a direct-hire employee of another U.S.
             Government agency temporarily assigned to USAID under a Participating
             Agency Service Agreement (PASA).

             USAID officials concurred with the findings and conclusions in our report
             (see page 8). There were no recommendations requiring corrective action.



Background   USAID is charged with the design and implementation of humanitarian and
             economic assistance programs overseas. To accomplish this work and to
             supplement its direct-hire workforce, it obtains the services of U.S. citizens
             and foreign nationals under a variety of employment mechanisms.

             USAID’s core workforce has evolved over the years in response to reductions
             in operating expense funding (OE funds) and authorized ceilings for U.S.
             direct hire (USDH) employees. As a result of these ceilings, USAID
             managers have hired large numbers of foreign nationals and U.S. citizens
             under personal services contracts (PSCs) to perform management and
             administrative functions. Many non-USDH personnel perform procurement
             functions as well for USAID, both in Washington and at the overseas mission
             offices.



                                                                                              2
                   At USAID missions overseas, the mix of direct hire employees, contractors,
                   and other non-direct hire staff varies from country to country. Many local
                   factors -- such as the availability of commercial services, OE funds, personnel
                   ceilings, and educated and experienced local job applicants -- contribute to the
                   unique "personnel profile" of each USAID field unit. In Washington, as well,
                   the different USAID bureaus do not all share the same approach in filling staff
                   vacancies. USAID/Washington bureaus have been utilizing greater numbers
                   of non-direct hire resources. Some USAID bureaus and offices have been
                   granted special authority to use appropriated funds to employ personal service
                   contractors and have exercised this authority to contract individuals to
                   perform procurement activities.



Audit Objectives   In response to a request from the House Appropriations Committee’s
                   Subcommittee on Foreign Operations, the USAID Office of Inspector General
                   conducted an audit to answer the following questions:

                   •   Does USAID have the authority to delegate procurement functions to
                       non-USDH personnel?

                   •   How many non-USDHs perform procurement functions and what are
                       their employment classifications?

                   Appendix I describes the audit scope and methodology.



Audit Findings     Does USAID have the authority to delegate procurement functions to
                   non-USDH personnel?

                   USAID has the authority to delegate procurement functions to non-U.S. direct
                   hire (USDH) personnel, including foreign and U.S. personal services
                   contractors. For example, contracting and obligating authority may be delegated
                   to non-USDHs with the approval of certain senior USAID officials. It is,
                   however, USAID’s general policy to designate only USDH employees as
                   contracting officers.

                   USAID’s authority to undertake procurement tasks and to delegate and
                   redelegate that authority rests in State Department Delegation of Authority No.
                   145, as amended March 31, 1999. Under this authority, the Secretary of State
                   delegated to the Administrator of USAID the functions to carry out, among other
                   things, Part I of the Foreign Assistance Act of 1961. The Delegation of
                   Authority defined “function” to include any duty, obligation, power, authority,
                   responsibility, right, privilege, discretion, or activity. It also provided that these
                   functions may, to the extent consistent with law, be redelegated and successively
                   redelegated and that rules and regulations may be promulgated as necessary to



                                                                                                        3
carry out the functions.

USAID rules governing the delegation of procurement functions to non-
USDH personnel performing procurement functions are provided for in both
the USAID Automated Directives System (ADS) and Acquisition Regulations
(AIDAR).

ADS 103.3.1.1 (a), Delegation to U.S. Citizen Personal Services Contractors
(USPSCs) and Non-U.S. Citizen Employees, provides the general policy:

       Notwithstanding any other provision of USAID directives,
       regulations, or delegations, U.S. citizen personal services
       contractors (USPSCs) and non-U.S. citizen employees (host
       country and third country Personal Services Contractors
       (PSCs) and direct-hire employees) may be delegated or
       assigned any authority, duty, or responsibility, delegable to
       U.S. citizen direct-hire employees (USDH employees) except
       that… they may not be designated a contracting officer or
       delegated authority to sign obligations or sub-obligating
       documents. (Emphasis added.)

However, ADS 103.3.1.1 (b) provides for exceptions to this limitation with
approval from the Assistant Administrator for the Bureau for Management. It
also states that USAID’s Director of the Office of Procurement (M/OP) has been
delegated the authority to issue contracting warrants to USPSCs. Pursuant to
this authority, USAID’s Director of the Office of Procurement issued a
memorandum in August 1999 stating that, on an exceptional basis, missions may
request that individuals serving as USPSC executive officers be granted
warrants. However, this would be limited to only retired USDH executive
officers who have completed the minimal requirements for a newly hired USDH
executive officer and whose contracting competence was known through earlier
M/OP assessments. Such exceptions would be considered when the USPSC
executive officer is serving on a long-term assignment or is involved in the
closeout of a mission.

This policy is also provided for in USAID’s Acquisition Regulation, AIDAR
701.603-70, Designation of Contracting Officers, which states that because
contracting officers represent the U.S. Government through the exercise of
their delegated authority to negotiate, sign, and administer contracts on behalf
of the U.S. Government, USAID contracting officers must be USDH
employees. In addition, Appendices D and J of these regulations set forth the
same limitations and exceptions found in ADS 103.3.1.1 regarding personal
service contractors (PSCs).

In commenting on this requirement, USAID’s Office of General Counsel
advised that, “there is nothing in law or regulation that prohibits as a general



                                                                                   4
matter the delegation of functions to non-citizens and nothing specific on
procurement functions. In other words, non-US citizen employees can be
contracting officers.” The General Counsel’s Office, however, stated further
that even though USAID has the authority to allow non-U.S. citizens to be
contracting officers, it has chosen not to exercise this authority.

Based on our review of USAID’s policies and regulations, the State
Department Delegation of Authority No. 145, and conversations with
USAID’s Office of General Counsel, we believe that USAID has the authority
to delegate procurement and contracting authority to non-USDH personnel
with restrictions and proper approval.

How many non-U.S. direct hire personnel perform procurement
functions and what are their employment classifications?

Non-USDH personnel in USAID performed a variety of procurement functions--
from basic acquisition of office supplies, to routine clerical work, to more
complex negotiation and contracting responsibilities. We identified an
estimated 230 USPSCs, foreign national employees, and foreign national PSCs
who were performing procurement-related functions at overseas missions and
four U.S. citizens that had been granted contract warrants. In addition, we
identified 13 non-USDHs performing procurement functions for USAID in
Washington.

Non-USDHs Performing Procurement Functions Overseas – USAID’s
records showed that, as of September 30, 2001, an estimated 230 non-USDH
employees of USAID were performing procurement related functions as a part
of their duties in USAID missions overseas.

The following chart indicates the distribution of these individuals by
employment category:

                     Non-USDH Personnel Performing
                     Procurement Functions Overseas
                     As of September 30, 2001 (Unaudited)
                     Employment Category                            Number

 U.S. personal services contractors (PSCs)                               14

 USDH on detail from another federal agency                               1
 Third country national PSCs                                             14
 Foreign national PSCs                                                   191
 Foreign national employees                                              10
 Total ………………………………………..                                                 230




                                                                               5
                 In addition, records showed that four U.S. citizens, who were not USAID
                 direct-hires, had been granted contracting warrants. Three of the four were
                 former USAID direct hire employees who already possessed significant
                 USAID contracting experience and were working under personal services
                 contracts, and the fourth individual was a direct-hire of another U.S.
                 Government agency temporarily assigned to USAID under a Participating
                 Agency Service Agreement.

                 Non-USDHs Performing Procurement Functions in USAID/Washington –
                 Each USAID/Washington office and bureau determines its own non-USDH
                 personnel workforce and controls the type, number, job title, and duties of
                 these individuals. Individual bureaus reported that two PSCs, and four
                 individuals working under purchase order arrangements were performing
                 procurement-related activities in Washington. Furthermore, USAID
                 Washington had also contracted with an institutional contractor that provided
                 seven employees to prepare contracting documents to be sent to USAID’s
                 Office of Procurement for final approval. None of these 13 individuals had
                 contracting warrants.

                 The following chart indicates the distribution of these thirteen individuals by
                 employment category:

                                     Non-USDH Personnel Performing
                                   Procurement Functions in Washington
                                    As of September 30, 2001 (Unaudited)
                                     Employment Category                               Number

                  U.S. personal services contractors (PSCs)                                2
                  U.S. citizens working under purchase orders                              4

                  U.S. citizens working for institutional contractor                       7
                  Total…………………………………………                                                    13



                 In addition to these staff, USAID missions in the past have detailed foreign
                 national employees and PSCs to the Office of Procurement to perform
                 procurement-related functions when necessitated by heavy workloads in
                 Washington.


Management
Comments and     USAID management concurred with the findings and conclusions of our audit.
Our Evaluation   There were no recommendations requiring corrective action. Management
                 comments are included in their entirety as Appendix II.



                                                                                                   6
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Performance Audit Division of the Office of Inspector General conducted
              an audit to determine: (1) USAID's authority to delegate contracting functions to
              non-US direct hire personnel and (2) how many non-US direct hire personnel
              were performing procurement functions in USAID as of September 30, 2001.
              Audit fieldwork was conducted at USAID/Washington from August 29, 2001
              through October 24, 2001. The audit was conducted in accordance with
              generally accepted government auditing standards.

              In answering the second audit objective involving the determination of the
              number of USAID personnel performing procurement-related activities, we
              relied on the data provided to us and did not test its reliability. Also, an
              unknown number of individuals might perform procurement-related functions on
              an ad hoc basis, which was not being tracked by the Office of Human
              Resources. Due to the nature and category of the audit objectives, we did not
              examine or assess any specific management controls.

              Methodology

              To answer the first audit objective, we reviewed applicable laws, Executive
              Orders, regulations and policies addressing the delegation of procurement
              authority to and within USAID. We reviewed the manner in which USAID
              interpreted the language of these documents and exercised its authority. Our
              analysis included discussions with USAID’s Office of General Counsel and
              Office of Procurement personnel for clarification of various points of law and
              authorities granted to USAID.

              To answer the second audit objective, we consolidated data from various sources
              and judgmentally made adjustments to the data based on discussions with
              personnel in the Office of Human Resources, and the USAID bureaus and
              offices.




                                                                                              7
                                                                                         Appendix II


Management
Comments




    U.S. AGENCY FOR
     INTERNATIONAL
      DEVELOPMENT




       MEMORANDUM


       TO:            IG/A/PA Director, Dianne L. Rawl

       FROM:          M/OP, Mark S. Ward

       SUBJECT:       Draft Report on Audit of Non-USDH Personnel Performing Procurement
                      Functions Within USAID

       Thank you for the opportunity to review the draft. I am pleased to see that the audit
       findings indicate that USAID has authority to delegate procurement functions to non-
       USDH personnel. The number and employment classification of these non-USDH
       personnel is consistent with our records in the Office of Procurement. To the extent that
       we continue to use non-USDH personnel for procurement functions, we will do so within
       the scope of our authority.




                             1300 Pennsylvania Avenue, N.W.
                                 Washington, D.C. 20523

                                                                                                   8
